CERTIFICATE OF COMPLIANCE

No.

 

CERVANTES ORCHARDS & _ VINEYARDS, LLC,
CERVANTES NURSERIES, LLC, CERVANTES PACKING &
STORAGE, LLC, MANCHEGO REAL, LLC, all Washington
limited liability corporations; JOSE G. CERVANTES,
individually and as his separate property; DEAN BROWNING

WEBB and SCOTT ERIK STAFNE, as individuals, :
Petitioner(s)

Ve

DEERE & COMPANY, a corporation; DEERE CREDIT, INC., a
corporation; JOHN DEERE CAPITAL CORPORATION, a
corporation; JOHN DEERE FINANCIAL, a corporation, FKA
FPC FINANCIAL; DEERE CREDIT SERVICES, INC., a
corporation; AMERICAN WEST BANK, a corporation; T-16
MANAGEMENT CO, LTD., a Washington corporation;
GARY JOHNSON, individually and upon behalf of their
community property marital estate; LINDA JOHNSON,
individually and upon behalf of their community property
marital estate; ROBERT WYLES, individually and upon behalf
of their community property marital estate; MICHELLE
WYLES, individually and upon behalf of their community
property marital estate) NW MANAGEMENT REALTY
SERVICES, INC., a Washington corporation, AKA Northwest
Farm Management Company; SKBHC HOLDINGS LLC, a

Washington limited liability corporation Respondent(s)

As required by Supreme Court Rule 33.1(h), I certify that the
petition for writ of certiorari contains 8565 words, excluding the
parts of the petition that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and
correct.

Executed on November 22,2019

(C ‘

\ Or: £ — abs
Dean Browning Webb, Esq
